                                                 U.S. SMALL BUSINESS ADMINISTRATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      WASHINGTON, D.C. 20416


                                                                                          ATTESTATION MEMORANDUM
                                                                                                   REPORT NO. 12-13
DATE:                   March 30, 2012


T O:                    Jonathan I. Carver, Chief Financial Officer

                        Frederick Baldassaro, Assistant Administrator for Communications and Public Liaison

                        Sara Lipscomb, General Counsel

                        Michele Chang, Deputy Chief of Staff

SUBJECT:                Review of the SBA’s Fiscal Year 2011 Cash Gifts

This report represents the results of our review of the Small Business Administration’s (SBA) controls
over cash gifts. The SBA has gift authority under sections 4(g), 8(b)(1)(G), 5(b)(9) and 7(k)(2) of the Small
Business Act (the Act). Employees may solicit and accept gifts on behalf of the SBA after proper
approvals, including a conflict of interest determination by SBA’s Office of General Counsel (OGC).
All gifts must be used in a manner consistent with the Act and any terms imposed by the donor. Section
4(g)(2) of the Act provides that any gift, devise, or bequest of cash accepted by the Administrator shall
be held in a separate account1 and shall be subject to semi-annual audits by the Inspector General who
shall report his or her findings to Congress.

We assessed whether the SBA was following established procedures for soliciting, accepting, holding,
and utilizing2 cash gifts in fiscal year 2011. To achieve our objective we obtained an understanding of
laws, regulations, and SBA policies and procedures regarding its gift authority. We also interviewed
selected SBA officials and examined documentation obtained from officials in the Offices of the
Administrator (OA), Strategic Alliances, and the Chief Financial Officer. We further utilized computer
assisted audit techniques to analyze the accounting of the SBA’s travel transactions.

We examined the only two cash gifts reported for this period totaling $10,000 that were recorded in the
Business Assistance Trust Fund (BAT Fund) during April 2011. These gifts were donated by Business
Forward, a nonfederal organization. The gifts were restricted to help pay the travel and per diem
expenses for guest speakers and participants attending the SBA’s “Start-up America: Empowering
Entrepreneurs and Reducing Barriers” (Start-up America) events. We performed our fieldwork between
February and March 2012 in accordance with Government Auditing Standards, prescribed by the
Comptroller General of the United States. We provided a draft of this report to SBA’s management for
comment. In their comments (See Appendix I) management fully concurred with the finding.
Management also fully concurred with two of the recommendations and proposed an alternative action
for the third recommendation.

1
    This account is called the Business Assistance Trust Fund (BAT Fund).
2
    Utilization refers to the obligation and expenditure of money held in the BAT Fund.

                                                                         1
Results

Based on our review, we determined that the SBA obtained proper approvals to solicit and accept gifts
to use for the payment of travel and per diem costs for the SBA’s Start-up America events in 2011. The
donor, Business Forward, was properly vetted through the SBA program offices to ensure no business
relationships existed that would cause a conflict of interest. The SBA’s OGC confirmed that no conflict of
interest existed between the SBA and Business Forward. We also determined the SBA fully complied
with the Act regarding the holding and utilization of cash gifts. The SBA recorded the cash donations in
the BAT Fund and timely made the funds available to the OA for expenditure. In addition, the
Massachusetts District Office used its prior year BAT Funds to pay for a Jobs Act “Listening Tour” event.

FINDING

We concluded that the SBA did not fully comply with the solicitation and acceptance provisions of its
cash gifts authority under the Act because staff in the OA recorded the wrong accounting code in the
SBA’s Administrative and Accounting System. Consequently, guest speakers’ and participants’ travel and
per diem expenses for the Start-Up America events, totaling $5,680.51, were reimbursed out of the
SBA’s salaries and expenses appropriation instead of the BAT Fund. While $5,680.81 of the original
$10,000 gift should have been used to pay these travel expenses, we also noted that the OA did not
follow-up with Business Forward regarding the disposition of the unused $4,319.49.

In a 2004 audit3 we recommended the SBA revise Standard Operating Procedure (SOP) 90 75 2, Cash
Gifts to clarify the portion of the SOP that addressed the SBA soliciting or accepting gifts from third
parties. In 2007, the SBA reissued the SOP as 90 75 3 addressing cosponsorships, but deleted the
procedures for accepting gifts. The reissued SOP 90 75 3 states that “SBA must follow the gift
solicitation and acceptance procedures outlined in SOP 90 53, Gifts to the Agency.” However, the SBA
never issued SOP 90 53. Therefore, the SBA has not had permanent procedures on gift acceptance in
place since 2007.

Recommendations

We recommend the:

1. Chief Financial Officer work with staff in the OA to ensure that a correcting journal voucher is
   recorded to adjust the balance of the BAT Fund by -$5,680.51 and correct the salaries and expenses
   fund by $5,680.51.

2. Deputy Chief of Staff in the OA work with the Chief Financial officer to reimburse Business Forward
   the $4,319.49 that was not needed to cover travel expenses for the Start-up America events.

3. General Counsel collaborates with the Offices of Strategic Alliances and the Chief Financial Officer to
   issue SOP 90 53. These revisions should include policies and procedures that clearly delineate the
   SBA’s policies and procedures for (a) soliciting and accepting cash gifts; (b) depositing cash gifts into
   and expending money from the BAT Fund; (c) tracking expenditures; (d) prohibitive uses of the BAT
   Fund, and (e) documentation retention requirements.




3
    OIG Report 4-44, Summary Audit of SBA Sponsored and Cosponsored Events dated September 24, 2004

                                                       2
Agency Comments and Office of Inspector General Response

On March 15, 2012, we provided a draft of this report to the addressees in this report for comment.
On March 29, 2012, management submitted formal comments, which are contained in their entirety in
Appendix I. Management officials fully concurred with the finding. Management also fully concurred
with two of the recommendations and proposed an alternative action for the third recommendation.
We found management’s action to be responsive to the recommendations.

Actions Required

Please provide your management decision for each recommendation on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days from the date of this advisory memorandum.
Your decision should identify the specific action(s) taken or planned for each recommendation and the
target date(s) for completion.

We appreciate the courtesies and cooperation of the SBA’s officials during this review. If you have any
questions concerning this report, please call me at (202) 205-7390, or Jeff R. Brindle, Director
Information Technology and Financial Management at (202) 205-7490.


                                                  ***

/S/ original signed
John K. Needham
Assistant Inspector General for Auditing




                                                    3
Appendix I: Agency Comments




                                           U.S. SMALL BUSINESS ADMINISTRATION
                                                     WASHINGTON, D.C. 20416




To:       John K. Needham
          Assistant Inspector General for Auditing

From: Jonathan I. Carver
      Chief Financial Officer

          Frederick Baldassaro
          AA for Communications and Public Liaison

          Sara Lipscomb
          General Counsel

          Michele Chang
          Deputy Chief of Staff

Date:     March 29, 2012

Re:       Advisory Memorandum: Review of the SBA’s FY 2011 Cash Gifts, Project 12006

The Small Business Administration (SBA) appreciates your review of our Business Assistance Trust (BAT)
Fund activities in FY 2011 and the opportunity to respond to the Recommendations in your Advisory
Memorandum.

RECOMMENDATIONS AND RESPONSES

      1. Chief Financial Officer work with staff in the OA to endure that a correcting journal voucher is
         recorded to adjust the balance of the BAT Fund by -$5680.51 and correct the Salaries and
         Expenses fund by $5680.51.

We agree with your recommendation and will make this journal entry in our accounting system and
provide documentation upon completion.

Anticipated Completion Date: May 1, 2012

      2. Deputy Chief of Staff in the OA work with the Chief Financial Officer to reimburse the Business
         Forward the $4,319.49 that was not needed to cover travel expenses for the Startup America
         events.



                                                      4
Appendix I: Agency Comments

We have written authorization from Business Forward (the donor) to maintain and utilize residual funds
for our continued efforts beyond the Startup America events. At the behest of the donor, we plan to
use these funds to support our continued efforts aiding small businesses. Please see the attached
supporting documentation that is also contained in the gift file.

    3. General Counsel collaborates with the Offices of Strategic Alliances and the Chief Financial
       Officer to issue SOP 90 53. These revisions should include policies and procedures that clearly
       delineate the SBA’s policies and procedures for (a) soliciting and accepting cash gifts; (b)
       depositing cash gifts into and expending money from the BAT fund; (c) tracking expenditures;
       (d) prohibitive uses of the BAT fund, and (e) documentation retention requirements.

We concur and will collaborate to finalize procedures related to the BAT fund and issue SOP 90 53.

Anticipated Completion Date: September 15, 2012




                                                   5
